APPENDIX A
79 M.J. 329 *; 2020 CAAF LEXIS 76 **; 2020 WL
745470
UNITED STATES COURT OF APPEALS
FOR THE ARMED FORCES
__________________
UNITED STATES
Appellee
,
v.
NICHOLAS E. DAVIS, Private
United States Army, Appellant
No. 19-0104
Crim. App. No. 20160069.
Argued November 6, 2019—February 12, 2020
Military Judge: Wade Faulkner
For Appellant: Captain Joseph C. Borland (argued);
Lieutenant Colonel Tiffany D. Pond, Major Jack D.
Einhorn, and Captain Benjamin A. Accinelli (on
brief); Captain Bryan A. Osterhage.
For Appellee: Captain Brian Jones (argued); Colonel
Steven Haight, Lieutenant Colonel Wayne H.
Williams, and Major Craig Schapira (on brief);
Captain Jeremy S. Watford.
Chief Judge STUCKY delivered the opinion of the
Court, in which Judges RYAN, OHLSON, SPARKS,
and MAGGS, joined. Judge MAGGS filed a separate
concurring opinion.
a1

________________
Chief Judge STUCKY delivered the opinion of
the Court.
Any person subject to the Uniform Code of
Military Justice (UCMJ) who, “without legal
justification or lawful authorization” nevertheless
“knowingly...records by any means the private area of
another person, without that other person's consent
and under circumstances in which that other person
has a reasonable expectation of privacy...is guilty of
an offense.” Article 120c(a)(2), UCMJ, 10 U.S.C. §
920c(a)(2) (2012). We granted review to determine
whether, as Appellant argues, the offense requires the
prosecution to prove beyond a reasonable doubt that
he subjectively knew the alleged victim was not
consenting. Because Appellant affirmatively waived
any objection to the military judge's instructions on
the elements of Article 120c(a)(2), we need not reach
the granted issue of whether the mens rea of
“knowingly” applies to the consent element of that
offense, and thus affirm the judgment below.
I. Posture
At a general court-martial, the military judge
convicted Appellant, pursuant to his pleas, of two
specifications of violating a lawful general order, in
violation of Article 92, UCMJ, 10 U.S.C. § 892 (2012).
Court members convicted Appellant, contrary to his
pleas, of one specification of false official statement,
one specification of indecent recording, and one
specification of broadcasting an indecent recording, in
violation of Articles 107, 120c, UCMJ, 10 U.S.C. §§
907, 920c (2012). The court members sentenced
Appellant to a bad-conduct discharge and reduction to
the grade of E-1. The military judge granted Appellant
fifteen days of credit, for time spent in pretrial
confinement, against the adjudged sentence. The
convening authority approved the adjudged sentence.
a2

That action was withdrawn and a new convening
authority approved the adjudged sentence and
credited Appellant with fifteen days of confinement
against his sentence. 1
The United States Army Court of Criminal
Appeals (CCA) dismissed the indecent broadcasting
specification as factually and legally insufficient, but
otherwise affirmed the findings and sentence. United
States v. Davis, No. ARMY 20160069, 2018 CCA
LEXIS 417, at *27-28, 2018 WL 3996488, at *10 (A.
Ct. Crim. App. Aug. 16, 2018). The court did not
address this granted issue. The CCA denied
Appellant's motion for reconsideration. United States
v. Davis, No. ARMY 20160069 (A. Ct. Crim. App. Oct.
17, 2018).
This Court initially granted review to
determine whether the military judge was required to
instruct that the prosecution prove not just that
Appellant knowingly recorded but also that he knew
the recording was done without the alleged victim's
consent, and affirmed the CCA's judgment on June 18,
2019. United States v. Davis, 79 M.J. 148 (C.A.A.F.
2019) (summary disposition). Following Appellant's
petition for reconsideration, and in light of Rehaif v.
United States, 139 S. Ct. 2191, 204 L. Ed. 2d 594
(2019), this Court then granted review of whether the
mens rea of “knowingly” applies to the consent
element of Article 120c(a)(2). United States v. Davis,
79 M.J. 213 (C.A.A.F. 2019).

As Appellant's sentence did not include confinement, hard
labor without confinement, restriction, fine, or forfeiture of pay,
Appellant was not entitled to sentence relief. See United States
v. Rosendahl, 53 M.J. 344, 347-48 (C.A.A.F. 2000); Rule for
Courts-Martial (R.C.M.) 305(k).
1

a3

II. Background
As the underlying facts leading to the charges
and convictions in this case are not relevant to the
granted issue, it suffices to say that Appellant was
accused of recording the private area of another
without her consent and when she had a reasonable
expectation of privacy. The following facts from
Appellant's court-martial, however, are relevant to
the granted issue.
At the court-martial, the military judge gave
the following instructions pertaining to the consent
element of the indecent recording charge:
[T]he accused is charged with the offense
of indecent visual recording, in violation
of Article 120c, UCMJ. In order to find
the accused guilty of this offense, you
must be convinced by legal and
competent evidence beyond a reasonable
doubt...[t]hat the accused did so without
the consent of [the victim]....
....

“Consent” means a freely given
agreement to the conduct at issue by a
competent person. An expression of lack
of consent through words or conduct
means there is no consent. Lack of verbal
or physical resistance or submission
resulting from the accused's use of force,
threat of force, or placing another person
in fear does not constitute consent. A
current or previous dating or social or
sexual relationship by itself or the
manner of dress of the person involved
with the accused in the conduct at issue
shall not constitute consent.
a4

Lack of consent may be inferred
based on the circumstances of the
offense. All of the surrounding
circumstances are to be considered in
determining whether a person gave
consent, or whether a person did not
resist or ceased to resist only because of
another person's actions. A sleeping,
unconscious, or incompetent person
cannot consent.
The prosecution has the burden to
prove lack of consent beyond a
reasonable doubt. Therefore, to find the
accused guilty of the offense of indecent
visual recording...you must be convinced
beyond a reasonable doubt that, at the
time of the conduct alleged, [the victim]
did not consent.
Before issuing the above instructions to the
panel, the military judge explained to counsel for both
parties the instructions that he chose to give,
including
the
consent
element
instruction.
Afterwards, the military judge asked whether the
defense had any objections or requests for additional
instructions. After consulting with the assistant
defense counsel, the defense counsel answered, “No
changes, sir.” After the military judge granted a
finding of not guilty on one of the specifications and
marked the instructions as an appellate exhibit, he
again asked the defense if there were any objections
to the findings instructions. The defense counsel
replied: “No, Your Honor.”
Appellant now argues that it was plain error for
the military judge to instruct the members that a
required element of Article 120c(a)(2) is lack of
consent, without also specifying that the accused must
have subjectively known that the alleged victim did
a5

not consent. However, we cannot decide whether
Appellant's interpretation of Article 120c(a)(2) is
correct, because Appellant waived this claim.
III. Discussion
A. Waiver
Whether an appellant has waived an issue is a
legal question that this Court reviews de novo. See
United States v. Haynes, 79 M.J. 17, 19 (C.A.A.F.
2019). “ ‘Waiver is different from forfeiture. Whereas
forfeiture is the failure to make the timely assertion
of a right, waiver is the intentional relinquishment or
abandonment of a known right.’ ” United States v.
Gladue, 67 M.J. 311, 313 (C.A.A.F. 2009) (internal
quotation marks omitted) (citation omitted) (quoting
United States v. Olano, 507 U.S. 725, 733, 113 S. Ct.
1770, 123 L. Ed. 2d 508 (1993)). Consequently, while
we review forfeited issues for plain error, “we cannot
review waived issues at all because a valid waiver
leaves no error for us to correct on appeal.” United
States v. Campos, 67 M.J. 330, 332 (C.A.A.F. 2009)
(internal quotation marks omitted) (citation omitted).
B. Analysis
As relevant here, “[f]ailure to object to an
instruction or to omission of an instruction before the
members close to deliberate constitutes waiver of the
objection in the absence of plain error.” R.C.M. 920(f).
This Court has interpreted that provision as referring
to forfeiture, not waiver. See, e.g., United States v.
Davis, 76 M.J. 224, 227 n.1 (C.A.A.F. 2017); United
States v. Ahern, 76 M.J. 194, 197 (C.A.A.F. 2017). But
Appellant did not just fail to object and thereby merely
forfeited his claim. He affirmatively declined to object
to the military judge's instructions and offered no
additional
instructions.
By
“expressly
and
unequivocally acquiescing” to the military judge's
a6

instructions, Appellant waived all objections to the
instructions, including in regards to the elements of
the offense. United States v. Smith, 2 C.M.A. 440, 442,
9 C.M.R. 70, 72 (1953); see also United States v. Wall,
349 F.3d 18, 24 (1st Cir. 2003) (“[C]ounsel twice
confirmed upon inquiry from the judge that he had 'no
objection and no additional requests [regarding the
instructions].' Having directly bypassed an offered
opportunity to challenge and perhaps modify the
instructions, appellant waived any right to object to
them on appeal.”). 2 As Appellant has affirmatively
waived any objection to the military judge's findings
instructions, there is nothing left for us to correct on
appeal. See, e.g., Campos, 67 M.J. at 332; Ahern, 76
M.J. at 198 (“[U]nder the ordinary rules of waiver,
Appellant's affirmative statements that he had no
objection [to the admission of the contested evidence]
also operate to extinguish his right to complain...on
appeal.”); cf. United States v. Payne, 73 M.J. 19, 23-24
(C.A.A.F. 2014) (holding that where trial defense
counsel objected generally to all of the military judge's
proposed findings instructions, only plain error review
was appropriate, as the objection was not sufficiently
specific to preserve the error on appeal).
Citing United States v. Haverty, 76 M.J. 199, 208
(C.A.A.F. 2017), Appellant nevertheless asks us to
review the granted issue for plain error. We previously
have said that “[p]anel instructions are analyzed for
plain error based on the law at the time of appeal.” Id.
We generally only review the matter for plain error
when a new rule of law exists, as “[a]n appellant gets
the benefit of changes to the law between the time of
trial and the time of his appeal.” United States v.
Tovarchavez, 78 M.J. 458, 462 (C.A.A.F. 2019); see
Other federal courts have ruled similarly. See, e.g., United
States v. Smith, 531 F.3d 1261, 1268 (10th Cir. 2008) (deciding
that the defendant had waived the issue when he had
“affirmatively represented that he had no objection to the
admission of the evidence at issue” and “also relied on the
evidence himself”).
2

a7

also United States v. Oliver, 76 M.J. 271, 274 (C.A.A.F.
2017) (“[W]hen there is a new rule of law, when the
law was previously unsettled, and when the [trial
court] reached a decision contrary to a subsequent
rule...it is enough that an error be plain at the time of
appellate consideration.” (alterations in original)
(internal quotation marks omitted) (quoting
Henderson v. United States, 568 U.S. 266, 133 S. Ct.
1121, 1130, 185 L. Ed. 2d 85) (2013))).
In this case, however, Appellant was tried after the
applicable precedents 3 were decided, yet affirmatively
declined to object to the military judge’s instructions.
Appellant's reliance on Rehaif, 139 S. Ct. 2191, 204 L.
Ed. 2d 594, to excuse his waiver is unavailing. There,
the Supreme Court held that the trial judge's findings
instructions had inappropriately limited the reach of
the statute's mens rea of “knowingly,” over the
appellant's objection. Id. at 2200. But Rehaif did not
create new law. See, e.g., Flores-Figueroa, 556 U.S. at
652-53. As Appellant concedes, it merely reiterated
that, “[a]s a matter of ordinary English grammar, we
normally read the statutory term “knowingly” as
applying to all the subsequently listed elements of the
crime.” Rehaif, 139 S. Ct. at 2196 (internal quotation
marks omitted) (citation omitted).
Therefore, we cannot review the granted statutory
interpretation question because Appellant waived the
claim by waiving any objection to the military judge's
instructions regarding the consent element.
Accordingly, we hold only that Appellant has
affirmatively waived the issue.
Appellant relies upon several Supreme Court decisions in
objecting to the military judge's instructions regarding the
consent element. See Flores-Figueroa v. United States, 556 U.S.
646, 650, 129 S. Ct. 1886, 173 L. Ed. 2d 853 (2009); United States
v. X-Citement Video, Inc., 513 U.S. 64, 72, 115 S. Ct. 464, 130 L.
Ed. 2d 372 (1994); Staples v. United States, 511 U.S. 600, 605,
114 S. Ct. 1793, 128 L. Ed. 2d 608 (1994).
3

a8

IV. Judgment
The judgment of the United States Army
Court of Criminal Appeals is affirmed.

a9

Judge MAGGS, concurring.
The Court's decision has important
consequences for counsel in all future trials before
members. In this case, the military judge informed
counsel of the instructions that he intended to give.
Then, in accord with the script in the Military
Judges’ Benchbook, the military judge asked both
parties whether they had any objections to the
instructions.
1 Both counsel answered in the negative. The
Court holds that their answers waived (and not
merely forfeited) any objection to the instructions
and that this waiver prevents any review of the
instructions. Counsel in future cases therefore must
be especially careful to raise any objections that they
might have to proposed instructions when the
military judge asks them—as military judges do in
almost every case before members—whether they
have any objections.
I write separately to address the question of
whether today's decision is inconsistent with United
States v. Haverty, 76 M.J. 199 (C.A.A.F. 2017).
Appellant cites Haverty for the proposition that, in the
absence of a defense objection, this Court reviews
panel instructions for plain error. Brief for Appellant
at 6, United States v. Davis, No. 19-0104 (C.A.A.F.
Aug. 29, 2019) (citing Haverty, 76 M.J. at 208). In
other words, Appellant contends that Haverty
requires us to treat his failure to object as mere
forfeiture rather than waiver. I believe that this
argument warrants careful attention.
This case and Haverty are nearly identical in a
key respect. A review of the record in Haverty reveals
The Military Judges' Benchbook includes the question: “Does
either side have any objection to those instructions?” Dep't of the
Army, Pam. 27-9, Legal Services, Military Judges' Benchbook ch.
2, § V, para. 2-5-8 (Sept. 10, 2014).
1

a10

that the military judge in that case, as in this case,
presented proposed instructions to the parties and
asked the parties, in accord with the Military Judges’
Benchbook, whether they had any objection. In both
cases, the parties told the military judge that they had
no objection. Yet the holdings of the cases are
different. In Haverty we held that the appellant
merely forfeited his objection, 76 M.J. at 208, while in
this case we hold that Appellant waived his objection.
The only explanation that we expressly gave in
Haverty for our conclusion that the appellant forfeited
his objection is that he did not object. 2 That
explanation by itself does not distinguish Haverty
from this case because the same is true here. What we
left unstated in Haverty, but what we certainly
understood, was that the appellant's failure to object
could not be a waiver because it was not an intentional
relinquishment of a known right. See United States v.
Gladue, 67 M.J. 311, 313 (C.A.A.F. 2009) (defining
waiver). The appellant in Haverty could not have
intentionally waived his objection to an instruction
regarding the required mens rea because the relevant
controlling precedent of both this Court and the
Supreme Court about the mens rea at issue were
decided after the appellant's court-martial had been
completed. See Haverty, 76 M.J. at 208. Thus, Haverty
involved more than counsel for both sides merely
answering the military judge's question whether they
had any objections in the negative and is therefore
distinguishable from this case.

In Haverty, we stated: “Because Appellant did not
object to the military judge's failure to instruct the
members on a mens rea requirement for the offense of
hazing under Article 92, UCMJ, we review this issue
for plain error.” 76 M.J. at 208.

2

a11

APPENDIX B
Not Reported in M.J., 2018 CCA LEXIS 417; 2018
WL 3996488
(Army Ct. Crim. App.)
Before
CAMPANELLA,
1 SALUSSOLIA, and FLEMING Appellate Military
Judges
UNITED STATES. ARMY COURT OF
CRIMINAL APPEALS
Army 20160069
UNITED STATES, Appellee,
v.
PRIVATE NICHOLAS E. DAVIS,
United States Army, Appellant.
Headquarters, U.S. Army Medical Department
Center and School
Wade Faulkner, Military Judge
Lieutenant Colonel Toshene C. Fletcher, Staff Judge
Advocate.
For Appellant: Captain Bryan A. Osterhage, JA (argued); Lieutenant Colonel Tiffany M. Chapman, JA;
Lieutenant Colonel Christopher D. Carrier, JA; Captain Bryan A. Osterhage, JA (on brief); Lieutenant
Colonel Christopher D. Carrier, JA; Captain Bryan A.
Osterhage, JA (on reply brief); Major Todd W. Simp-

1 Senior Judge Campanella decided this case prior to her
departure from the Court.

a12

son, JA; Captain
supplemental brief).

Bryan

A.

Osterhage

(on

For Appellee: Captain Jeremy Watford, JA (argued);
Lieutenant Colonel Eric K. Stafford, JA; Major
Cormac M. Smith, JA (on brief).
___________
MEMORANDUM OPINION
FLEMING, Judge:
In this appeal, we find the military judge properly
denied the defense motion to suppress some of
appellant’s statements to Criminal Investigation
Command (CID) agents and the search of his cell
phone. We affirm appellant's conviction of making an
indecent visual recording of another soldier's private
area when that soldier possessed a reasonable
expectation of privacy at the time of its recording. We
find appellant's conviction of broadcasting an indecent
recording is factually and legally insufficient.
An officer panel sitting as a general court-martial
convicted appellant, contrary to his pleas, of one
specification of false official statement, one
specification of indecent recording, and one
specification of broadcasting an indecent recording in
violation of Articles 107 and 120c, Uniform Code of
Military Justice, 10 U.S.C. §§ 907, 920c (2012)
[UCMJ]. The military judge convicted appellant,
pursuant to his pleas, of two specifications of violating
a lawful general order in violation of Article 92,
UCMJ. The convening authority approved the
adjudged sentence of a bad conduct discharge and a
reduction to the grade of E-1. Appellant was credited
with fifteen days of confinement against the sentence
to confinement.

a13

This case is before us for review pursuant to Article
66, UCMJ. We address two assignments of error, with
multiple subparts, one of which merits relief.
Appellant personally raised seven matters pursuant
to United States v. Grostefon, 12 M.J. 431 (C.M.A.
1982), one of which is also an assigned error. The
remaining Grostefon matters, after due consideration,
do not warrant discussion or relief.
BACKGROUND
Events Regarding Appellant’s Crimes
Appellant's offenses occurred the day after
Thanksgiving when mostly underage soldiers
consumed alcohol and engaged in sexual activity in a
cheap off-post motel room. Appellant, Private (PV2)
JE, and several other soldiers rented the motel room
to surreptitiously consume alcohol. Appellant
purchased alcohol for all the soldiers. After consuming
various amounts of alcohol, most of the soldiers left
the motel room except for appellant, PV2 JE, PV2 JH,
and PV2 JS.
The location of these four remaining soldiers within
the room and the room's location and layout is key to
understanding this case. The room was located on the
first floor with a window facing towards, and a door
opening to, the motel's parking lot. Upon opening the
door, there was a bedroom containing two beds and a
separate bathroom beyond. Private JS, due to
immense alcohol consumption, passed out on the bed
closest to the window. Appellant, PV2 JE, and PV2 JH
engaged in a variety of sexual activities with one
another on the other bed closest to the bathroom.
Private JE asserted the sexual activities were
nonconsensual and appellant asserted the activities
were consensual. While on the bed and without PV2
JE's knowledge or consent, appellant used his cell
a14

phone to record PV2 JE’s buttocks as she was bent
over and faced forward while engaging in sexual
intercourse with him.
A few minutes after appellant made the recording,
several soldiers from the group returned to the motel
room and knocked on the door. When no one answered
the locked door, one of the soldiers walked over to the
window, looked in, and saw PV2 JE jump off the far
bed and run into the bathroom. Appellant then opened
the door to let the group into the room. Before leaving
the room, appellant showed a fellow soldier the cell
phone recording he made of PV2 JE’s buttocks.
Appellant’s CID Interview
A few days later, appellant was interviewed by CID
agents for the alleged rape, among other offenses, of
PV2 JE. Appellant made several incriminating
statements. At the end of the interview, appellant
consented to the seizure and search of his cell phone
which contained his video recording of PV2 JE.
Appellant deleted the video recording he made of PV2
JE, but the CID digital forensic examiner was able to
extract the deleted video from appellant's cell phone.
At trial, defense counsel filed a motion to suppress
appellant's statements to CID and challenged the
validity of his consent to seize and search his
cellphone because: (1) appellant invoked his right to
counsel; and (2) his entire statement was involuntary.
The military judge granted the motion, in part, and
denied the motion, in part, as discussed in-depth
below.
In order to review the military judge's ruling, we
divide the CID interview into four key areas: (1) initial
waiver; (2) invocation of rights; (3) re-initiation of
communication; and (4) re-waiver of rights.
a15

Initial Waiver
At the time of the interview, appellant was twentyfive years old, had a General Technical (GT) score of
124, and was receiving training to be a combat medic
specialist. The military judge found “[appellant]
maintained eye contact; could recollect facts, had no
difficulty speaking, had no slurred speech, had no
difficulty walking, and had no difficulty sitting. The
[appellant] did not appear to be under the influence of
any substance that would impair his ability to
knowingly waive his rights.”
Prior to any questioning by CID agents, appellant
was advised orally and in writing of his Article 31(b),
UCMJ, and Miranda rights. Miranda v. Arizona, 384
U.S. 436, 86 S. Ct. 1602, 16 L. Ed. 2d 694 (1966).
Appellant verbally affirmed he understood his rights
and waived his rights. Appellant placed his initials by
each right and signed Department of Army Form
3881-E (DA Form 3881), the rights’ waiver
procedure/waiver certificate, purportedly indicating
he understood and waived his rights.
The CID agent verbally advised appellant he was
suspected of “having knowledge,” as opposed to
“having committed,” a rape. Appellant's DA Form
3881, however, stated appellant was suspected of
committing the offense of rape. This initial
discrepancy between the CID agent's oral advisement
and the written form was later clarified by appellant
during the interview and is discussed below.
After obtaining appellant's waiver of rights, a CID
agent commenced questioning appellant. After a few
minutes of questions, appellant asked the agent
whether an attorney could be made available that
night. The agent replied it would not be possible that
night but it could be scheduled at a later time.
a16

Appellant did not ask to reschedule the interview but
instead stated he wanted to get the interview done
that night.
Invocation of Rights
Shortly after expressing his desire to continue the
interview, appellant sought to clarify the discrepancy
between whether he was suspected of "having
knowledge" or “having committed” a rape. Appellant
stated if an accusation existed that he committed a
rape, the situation was “pretty serious.” After noting
the severity of the situation, appellant stated “I would
like to have a lawyer present ... if I'm under
investigation for [committing] rape.” The military
judge ruled this statement was an unambiguous
invocation of appellant's right to counsel.
Re-Initiation of Communication
Immediately after appellant's request for counsel,
he sua sponte continued talking to the CID agent,
providing an approximate nine-minute monologue on
his exculpatory version of the events regarding the
alleged offenses. During this monologue, the agent did
not ask appellant any questions or re-advise appellant
of his rights. The agent testified he did not stop the
interview because appellant continued to discuss the
incident and “continued for an extensive period of
time.” The military judge denied the defense motion
to suppress any statements during appellant's
monologue, concluding they were voluntarily,
spontaneously initiated by appellant, and not in
response to any questions from the CID agent.
After appellant's lengthy monologue, the agent
began re-questioning appellant without re-advising
him of his rights. This re-questioning period continued
a17

for approximately fifty minutes. The military judge
held appellant's statements within this fifty-minute
window were not admissible because they were taken
in violation of his right to counsel as a valid re-waiver
of his rights had not occurred.
Re-Waiver of Rights
Approximately fifty minutes into the re-questioning
period, appellant asked the agent about taking a
polygraph examination. The agent told appellant that
a polygraph examination could not occur that night,
but it could be scheduled for later. Appellant then
immediately stated “I would like to request a lawyer
after this point.” The agent then asked appellant if he
was requesting a lawyer right at that moment.
Appellant responded he was not requesting a lawyer
at this time.
The military judge held appellant's statement was
an affirmative re-waiver of his right to counsel and
denied the defense motion to suppress any of
appellant's statements after this re-waiver. While this
re-waiver occurred almost an hour after appellant's
spontaneous re-initiation of communication and fifty
minutes after the agent began re-questioning
appellant, the military judge reasoned appellant's
immediate re-initiation of the interview (the nineminute monologue) authorized the agent to obtain a
subsequent re-waiver of appellant' rights.
After this re-waiver, the interview continued with
appellant stating “nothing I did is incriminating and I
want my part of the story heard.” Despite this
assertion,
appellant
eventually
made
some
incriminating statements in response to CID
questioning, including an admission that he recorded
PV2 JE's buttocks without her consent.
a18

Appellant also consented to the seizure and search
of his cell phone which he used to video PV2 JE. The
military judge denied the defense motion to suppress
the seizure and search of the cell phone on the grounds
that appellant's consent occurred after his reinitiation and re-waiver of rights.
LAW AND DISCUSSION
Suppression of Statements
On appeal, appellant asserts the military judge
abused his discretion by not suppressing all of
appellant's statements to CID. Appellant essentially
offers the same reasons supporting suppression as he
did at trial. First, appellant unambiguously invoked
his right to counsel and the CID agent failed to
immediately terminate the interview. Second,
appellant's statements were involuntary.
We review a military judge's ruling on a motion to
suppress for an abuse of discretion. United States v.
Baker, 70 M.J. 283, at 287 (C.A.A.F. 2011). An abuse
of discretion occurs “when: (1) the findings of fact upon
which [the military judge] predicates his ruling are
not supported by the evidence of record; (2) if incorrect
legal principles were used; or (3) if his application of
the correct legal principles to the facts is clearly
unreasonable.” United States v. Ellis, 68 M.J. 341, 344
(C.A.A.F. 2010); Military Rule of Evidence [Mil. R.
Evid.] 304; 305. We review the military judge's
conclusions of law de novo, including his conclusion as
to the voluntariness of the statement. United States v.
Chatfield, 67 M.J. 432, 437 (C.A.A.F. 2009).
We find the military judge did not abuse his
discretion by concluding appellant made an
unambiguous invocation of his right to counsel after
a19

initially waiving his rights. An attorney was not made
available to appellant after his invocation of his right
to counsel. Under these facts, two issues must be
considered to determine if the military judge abused
his discretion by not suppressing all of appellant's
statements: (1) whether appellant re-initiated
communication with the CID agent; and (2) whether
appellant subsequently re-waived his right to counsel.
Appellant's Statements Made After Re-Initiation
As to re-initiation, the Supreme Court in Edwards
v. Arizona, 451 U.S. 477, 485, 101 S. Ct. 1880, 68 L.
Ed. 2d 378 (1981), created a bright-line rule barring
police from interrogating an accused in custody once
he clearly asserts his right to counsel, unless an
attorney is provided, or “the accused himself initiates
further communication, exchanges, or conversations
with the police.” Military Rule of Evidence
305(e)(3)(A) prohibits re-questioning an accused, who
is subject to “custodial interrogation,” after he invokes
his right to counsel unless the accused re-initiates
communication and provides a subsequent waiver. 2
The military judge did not determine whether
appellant was subject to “custodial interrogation,” but
the distinction between custodial and non-custodial
interrogation in the military context appears
irrelevant. Our superior court extends counsel rights
and the Edwards re-initiation and re-waiver

2 “‘Custodial

interrogation’ means questioning that takes
place while the accused . . . is in custody, could reasonably
believe himself or herself to be in custody, or is otherwise
deprived of his or her freedom of action in any significant
way.” See Mil. R. Evid. 305(b)(3).

a20

requirements to accused who are only subjected to
mere non-custodial interrogation.
The Court of Criminal Appeals (CAAF) has stated
“[c]onsistent with our precedents, we note that in the
military system the accused's right to counsel - - and
the requirement of knowing and voluntary waiver - are not limited to custodial interrogations.” United
States v. Mott, 72 M.J. 319, 330 n. 10 (C.A.A.F. 2013)
(citing United States v. Delarosa, 67 M.J. 318, 320
(C.A.A.F. 2009)) (“Military officials and civilians
acting on their behalf are required to provide rights
warnings prior to interrogating a member of the
armed forces if that servicemember is a suspect
irrespective of custody.”). Even with the explicit words
in Mil. R. Evid. 305(e)(3)(A) requiring “custodial
interrogation,” and the absence of the military judge's
finding of fact on this issue, we nevertheless apply
CAAF's precedent and first review, under Edwards,
whether “[appellant] himself initiate[d] further
communication, exchanges, or conversations” with the
agents. Edwards, 451 U.S. at 484-85.
We find the military judge did not err in finding
appellant sua sponte re-initiated communication with
a CID agent immediately after he invoked his right to
counsel with no coaxing from the agent. Appellant
engaged in a nine-minute monologue asserting his
exculpatory version of events. The agent did not ask
questions during this time period. The agent also
testified he did not stop the interview because
appellant continued to discuss the incident and
“continued for an extensive period of time.”
Accordingly, we hold the military judge did not abuse
his discretion by denying defense's motion to suppress
appellant's statement made during his lengthy
monologue.

a21

Appellant's Statement Made after Re-Waiver
After
determining
appellant re-initiated
communication, the question next turns to whether
appellant subsequently provided a knowing,
intelligent, and voluntarily re-waiver of his rights
under a “totality of the circumstances.” Oregon v.
Bradshaw, 462 U.S. 1039, 1045-46, 103 S. Ct. 2830, 77
L. Ed. 2d 405 (1983) (stating that once it has been
determined that an accused re-initiated dialogue with
law enforcement there is also a separate inquiry into
the voluntariness of the re-waiver).
Appellant asserts his re-waiver was not knowing,
intelligent, and voluntary because the agent failed to
re-advise him of his rights, and therefore, any
statement elicited by CID after his alleged re-waiver
must be suppressed. Although a rights re-advisement
is a very important factor to consider under a “totality
of the circumstances,” we decline to adopt a per se
rule, as suggested by appellant, that a failure to readvise an accused of his rights automatically equates
to an unknowing, unintelligent, and involuntary rewaiver. See United States v. LeMasters, 39 M.J. 490,
491
(C.M.A.
1994)
(holding
an
accused's
acknowledgement that he could consult with counsel,
without a re-advisement of rights, sufficed to establish
a knowing waiver). We also decline to per se invalidate
the legality of appellant's re-waiver because it
occurred fifty minutes after appellant's re-initiation of
communication and lengthy monologue when, we
repeat, this is one of many factors which must be
weighed in reviewing the totality of the
circumstances. Any per se and pro forma rule would
eviscerate a totality of the circumstances review.
a22

After thoroughly reviewing the totality of
appellant's circumstances, we hold the military judge
did not abuse his discretion finding appellant
knowingly, intelligently, and voluntarily re-waived
his rights when appellant stated that he was not
requesting a lawyer at this time. Appellant was
twenty-five years old and possessed a GT score of 124.
Nothing in the military judge's findings of fact, or our
separate review, indicate any type of coercion during
the re-waiver process or the entire interview.
After closely reviewing the entire video recording of
appellant's interview, this court finds appellant was
extremely articulate and clearly understood his
rights. The overall theme of the entire interview was
appellant's desire to immediately speak with CID
because, as stated by appellant, “I want my part of the
story heard.” See Michigan v. Mosley, 423 U.S. 96, 104,
96 S. Ct. 321, 46 L. Ed. 2d 313 (1975) (stating “the
admissibility of statements obtained after the person
in custody has decided to remain silent depends under
Miranda on whether his ‘right to cut off questioning’
was ‘scrupulously honored.’”). Appellant did not want
to “cut off questioning” from CID agents but instead
wanted to fully and immediately discuss the alleged
offenses to clear his name.
Appellant re-initiated communication on his own
volition and was not badgered by CID agents into rewaiving his rights. Appellant understood he had the
right to counsel, he elected not to wait to consult with
counsel, and he continuously exhibited a strong desire
to talk to the CID agents. The military judge did not
abuse his discretion by denying the motion to
suppress appellant's statements that occurred after

a23

his re-initiation of communication and his affirmative
re-waiver of counsel rights. 3
Appellant's affirmative re-waiver, when combined
with the other factors discussed above, served to
establish a knowing, intelligent, and voluntary rewaiver of his rights. We find our holding consistent
with the overall purpose of the Edwards rule which
seeks to “prevent police from badgering a defendant
into waiving his previously asserted” request for
counsel. See Minnick v. Mississippi, 498 U.S. 146, 150,
111 S. Ct. 486, 112 L. Ed. 2d 489 (1990). 4 Once
appellant's re-initiation merged with a valid noncoerced re-waiver, the judicially created prophylactic
reasons, derived from Edwards, to suppress
appellant's statements no longer existed.
We pause now, however, to reinforce the general
principle that CID agents should re-advise an accused
of his rights before re-questioning an accused who: (1)
invokes his right to counsel after initially waiving
such right; and (2) re-initiates communication after
that invocation. This opinion should not be read to
embolden CID agents, or anyone else, to do otherwise.
Our affirmance of the military judge's ruling in this
case is limited to the very narrow set of presented
facts.
3 Likewise,

we find the military judge did not abuse his discretion
in suppressing appellant's statements within the approximate
fifty minute window occurring between the end of his monologue
and his affirmative re-waiver of counsel.

4 The

Edwards rule “should be counterbalanced against the
‘unmitigated good’ on the part of law enforcement to secure
‘uncoerced confessions.’” See United States v. Maza, 73 M.J. 507,
525 (N. M. Ct. Crim. App. 2014) (citing McNeil v. Wisconsin, 501
U.S. 171, 181, 111 S. Ct. 2204, 115 L. Ed. 2d 158 (1991)).

a24

Voluntariness of Appellant's Entire Statement
At trial, defense counsel asserted appellant's
statements were involuntary because he was: (1)
initially handcuffed enroute to the CID office; (2)
prescribed certain medications; and (3) sleepy due to
his medication usage and having been awake for the
previous sixteen hours. An inquiry into voluntariness
assesses “the totality of all the surrounding
circumstances - both the characteristics of the accused
and the details of the interrogation.” Schneckloth v.
Bustamonte, 412 U.S. 218, 226, 93 S. Ct. 2041, 36 L.
Ed. 2d 854 (1973); United States v. Bubonics, 45 M.J.
93 (C.A.A.F. 1996). We review the military judge's
conclusions of law de novo, including his conclusion as
to the voluntariness of the statement. United States v.
Chatfield, 67 M.J. 432, 437 (C.A.A.F. 2009). We find
appellant's statements were voluntary based on the
totality of the circumstances.
Appellant was not handcuffed during any part of the
interview. Appellant's freedom of movement was not
constrained in any manner. Appellant even did
calisthenics during one break in the interview.
As to appellant's prescription for trazodone and
tramadol, the record does not establish he took either
medication prior to or during his interview or that
these medications had any bearing on his physical or
cognitive functioning during his interview. Appellant
was wide-awake and extremely articulate.
As to appellant being sleepy due to his alleged
medication usage or having been awake for the
previous sixteen hours, we adopt the military judge's
detailed findings of fact. The military judge found
“[appellant] maintained eye contact; could recollect
facts, had no difficulty speaking, had no slurred
speech, had no difficulty walking, and had no
a25

difficulty sitting. The [appellant] did not appear to be
under the influence of any substance that would
impair his ability to knowingly waive his rights.”
We highlight the following additional facts
supporting
the
voluntariness
of
appellant's statements. Again, at the time of the
interview, appellant was twenty-five years old, had a
GT score of 124, and was receiving training to be a
combat medic specialist. Appellant felt sufficiently
comfortable to sua sponte ask the CID agent if he
could take off his Army Combat Uniform shirt because
he was hot. Appellant's request was immediately
granted. Appellant was so assertive he corrected the
CID agent throughout the interview by adamantly
denying he engaged in a “double penetration” of PV2
JE's body with another solider despite the agent's
assertion to the contrary. The agents made no
promises to or threats against appellant.
Suppression of Cell Phone
Appellant asserts the military judge abused his
discretion by not suppressing the contents of
appellant's cell phone because: (1) his consent to its
seizure and search was involuntary; and (2) he
consented to the search during an unlawful
interrogation. We disagree.
Having already determined appellant's acts were
voluntary during the entire interview, we further note
that appellant failed to raise the issue of
voluntariness at trial as it relates to his consent to
seize and search his cell phone. Appellant's trial
defense counsel also did not object to the contents of
the cell phone being admitted into evidence.
Whether an appellant has waived an issue is a
question of law we review de novo. See United States
a26

v. Rosenthal, 62 M.J. 261, 262 (C.A.A.F. 2005).
Military Rules of Evidence 311(d)(1) and (2) require
the trial defense counsel to make a motion to suppress
evidence seized from the accused prior to submission
of plea, or at a later time as permitted by the military
judge for good cause. R.C.M. 905(e). Appellant's
failure to raise the issue of voluntariness in his motion
to the military judge and at trial constitutes waiver of
his right to object to this Court regarding the
admission of the contents of his cell phone.
Accordingly, appellant's claim that his consent to
search his cell phone was involuntary is waived,
leaving no error to correct on appeal. See United
States v. Ahern, 76 M.J. 194, 197 (C.A.A.F. 2017).
As to appellant's second argument, even if we
agreed with appellant that his consent occurred
during an unlawful interrogation, which we do not, a
request for a consent to seize and search does not
impinge upon Article 31(b) or Fifth Amendment rights
because such requests are not interrogations and the
consent given is ordinarily not a statement. See
United States v. Robinson, 77 M.J. 303 (C.A.A.F.
2018). “Requesting consent to search property in
which a suspect has an interest is not prohibited by
his prior request for counsel, because Edwards
provides protection only as to interrogation.” United
States v. Burns, 33 M.J. 316, 320 (C.M.A. 1991).
Factual and Legal Sufficiency of the Cell Phone
Offenses
Appellant argues his conviction for the offenses of
making and broadcasting a visual recording is
factually and legally insufficient because PV2 JE did
not have a reasonable expectation of privacy when the
recording was made and the manner in which
appellant displayed the video to another soldier does

a27

not meet the definition of “broadcasting” in Article
120c, UCMJ.
We review claims of legal and factual insufficiency
de novo, examining all of the evidence properly
admitted at trial. Art. 66(c), UCMJ; United States v.
Beatty, 64 M.J. 456, 459 (C.A.A.F. 2007). The test for
legal sufficiency is whether, considering the evidence
in the light most favorable to the government, any
rational trier of fact could have found the elements of
the contested crimes beyond a reasonable doubt.
Jackson v. Virginia, 443 U.S. 307, 318-19, 99 S. Ct.
2781, 61 L. Ed. 2d 560 (1979). The test for factual
sufficiency is whether after weighing the evidence in
the record of trial and making allowances for not
having personally observed the witnesses, we
ourselves are convinced of the appellant's guilt beyond
a reasonable doubt. United States v. Turner, 25 M.J.
324, 325 (C.M.A. 1987).
Within the context of this case, the government was
required to prove beyond a reasonable doubt that
appellant knew or reasonably should have known the
recording was made without PV2 JE’s consent, under
circumstances in which PV2 JE had a reasonable
expectation of privacy, and that he knowingly
broadcasted the recording to another. Article 120c,
Uniform Code of Military Justice, 10 U.S.C. § 920c
(2012).
Reasonable Expectation of Privacy
“Reasonable expectation of privacy,” for the
purposes of the charged offense, is defined as
“[c]ircumstances in which a reasonable person would
believe that he or she could disrobe in privacy, without
being concerned that an image of a private area of the
person was being captured.” 10 U.S.C. § 920c(d)(3).
“Private area” includes a person's buttocks. 10 U.S.C.
a28

§ 920c(d)(2). “By enacting this provision of the UCMJ,
Congress recognized an expectation of privacy in a
person’s body consistent with what has historically
been recognized through widely accepted social
norms.” United States v. Raines, 2014 CCA LEXIS
600, *12-13 (N.M. Ct. Crim. App. 2014).
Here, appellant recorded PV2 JE, who was bent over
and facing forward, while he was directly behind her
attempting to penetrate her vagina. Appellant asserts
PV2 JE, who had neither knowledge of the cell phone's
presence nor consented to the making of the recording,
did not have a reasonable expectation of privacy
because it was daylight, two other people were in the
room, and the room was located on the first floor with
a window looking out into the parking lot. Appellant
further argues a passerby in the parking lot could
have seen PV2 JE engaging in sexual activities with
appellant, rendering the sexual act “open and
notorious,” and thus no reasonable expectation of
privacy could exist.
In Raines, our sister service court explored the
boundaries of a person’s “reasonable expectation of
privacy.” Raines, 2014 CCA LEXIS at *3. In Raines,
appellant video recorded his sexual encounters with
four different women. Id. Although the sexual
encounters were consensual, the women did not
consent or know about the recording. Id. Raines
argued the women should have noticed the camera
and, that by agreeing to have sex with him, they
implicitly agreed to the recording. Id. at *13. The
Navy-Marine Corps Court of Criminal Appeals held
such arguments were “[. . .] patently ridiculous;
agreeing to have sex with another does not remove all
reasonable expectations of privacy.” Id.; see also
United States v. Vega, 2014 CCA LEXIS 929, *9-10
(N.M. Ct. Crim. App. 2014).
a29

Likewise, PV2 JE did not consent to the
surreptitious recording and did not lose her
reasonable expectation of privacy when she engaged
in sexual activity with two individuals in the presence
of a third unaware person. 5 As to a possible passerby
scenario, the door to the motel room was closed and
locked and the scene of the sexual activity was across
the room and away from the window. Private JE’s
buttocks were recorded by appellant, who was in
direct physical contact with her from behind while
trying to engage in sexual intercourse, from a very
short distance. It was not the same image that could
have been captured from a distance, across the motel
room, and through a window.
The facts of this case fit squarely within the
statute's definition of “reasonable expectation of
privacy.” 10 U.S.C. § 920c(d)(3). Private JE had a
reasonable belief that her “private area,” her buttocks,
would not be captured because appellant never
mentioned recording their sexual act. She did not
consent to such recording and no cameras were visible
to her while engaging in sex with appellant. 10 U.S.C.
§ 920c(d)(3). We conclude PV2 JE had a reasonable
expectation of privacy that her buttocks would not be
recorded by appellant, her sexual partner, while
engaging in sexual intercourse behind a locked door in
a motel room.

5 Private

JE asserted the sexual intercourse with appellant was
non-consensual. Appellant asserted the sexual intercourse was
consensual. We need not determine, however, whether the sexual
intercourse was consensual or nonconsensual because, even if we
were to determine the sexual activity was consensual, PV2 JE
did not lose her reasonable expectation as to being video
recorded.

a30

“Broadcasting” the Recording
The term “broadcast” is defined as “to electronically
transmit a visual image with the intent that it
be viewed by a person or persons.” 10 U.S.C. §
920c(d)(4). The phrase “electronically transmit” is not
further defined in the statute. Appellant asserts the
mere act of playing the video recording of PV2 JE on
his cell phone in front of one other physically present
soldier does not constitute “broadcasting” under 10
U.S.C. § 920c(a)(3). We agree.
In deciding whether appellant's conduct constituted
a “broadcast,” we first must attempt to discern if a
plain meaning of “electronically transmit” exists. See
King v. Burwell, 135 S. Ct. 2480, 2489, 192 L. Ed. 2d
483 (2015). If no plain meaning exists and the
language is ambiguous, we next consider the
ambiguous word in the context of the entire statute.
Id. We also may review the legislative history and
attempt to discern the intent of lawmakers in enacting
the statute.
In the absence of explicit language showing a
contrary congressional intent, we must give words in
statutes their usual meaning. See Barber v. Gonzales,
347 U.S. 637, 643, 74 S. Ct. 822, 98 L. Ed. 1009 (1954).
In the absence of a statutory definition, we look to
whether the language has a plain and unambiguous
meaning. United States v. Williams, 75 M.J. 663
(Army Ct. Crim. App. 2016). The plain language of a
statute will control unless it is ambiguous or leads to
an absurd result. United States v. Lewis, 65 M.J. 85,
88 (C.A.A.F. 2007).
The pertinent definition of “electronic” is “utilizing
devices constructed or working by the methods or
principles of electronics.” Webster's Third New
International Dictionary 280 (1981). See also Trump
a31

v. Hawaii, 138 S.Ct. 2392, 2410-11, 201 L. Ed. 2d 775
(June 26, 2018) (approving the use of the Webster's
Third International Dictionary to discern a statute's
textual plain meaning). The most relevant definition
of “transmit” is “to send out a signal either by radio
waves or over a wire line.” Webster's Third New
International Dictionary 280 (1981). The combination
of these two definitions appears to require an
electronic device to send the transmission and an
electronic device to receive the transmission. 6 In this
case, there is only one electronic device - appellant's
cell phone.
We
also
further
considered
the
words,
“electronically transmit” within the context of the
entire statute. "The plainness or ambiguity of
statutory language is determined by reference to the
language itself, the specific context in which that
language is used, and the broader context of the
statute as a whole." Robinson v. Shell Oil Co., 519 U.S.
337, 341, 117 S. Ct. 843, 136 L. Ed. 2d 808 (1997).
Article 120c(a)(3), UCMJ prohibits two acts:
“broadcasting” or “distributing.”
“Distribute” is defined as “delivering to the actual or
constructive possession of another, including
transmission by electronic means.” 10 U.S.C. §
920c(d)(5). The definition of distribution allows for a
physical or an electronic transference whereas
the definition of broadcast is limited to only an
6 Although

“broadcast” is defined by the statute, we note that
“broadcast” generally means “the act of sending out sound or
images by radio or television transmission, especially for general
transmission.” Webster's Third New International Dictionary
280 (1981). This general meaning of broadcast appears to also
require an electronic device to send the transmission and an
electronic device to receive the transmission.

a32

electronic transference. We find it persuasive that
Congress intentionally included two modes of
transference for a distribution and only delineated one
mode of transference for a broadcast. Based on our
analysis of “broadcast” within the context of the
statute, we conclude there is no basis for finding that
Congress intended the definition of “broadcast” to
include the mere physical act of displaying a video to
one other physically present soldier.
Although 10 U.S.C. section 920c was not enacted
until 2012, we note that Congress enacted a similar
statute, 18 U.S.C. section 1801, in 2004 which was
given the short title, “Video Voyeurism Prevention Act
of 2004." Notably, 18 U.S.C. section 1801 defines the
term “broadcast” to mean “electronically transmit[ing]
a visual image with the intent that it be viewed by a
person or persons.” 18 U.S.C. § 1801(b)(2). We now
turn to the legislative intent of this similar statute for
additional guidance to discern Congress’ intent in
enacting 10 U.S.C. section 920c.
In the House Report for 18 U.S.C. section 1801,
Congress stated the background and need for this
legislation was the “development of small, concealed
cameras and cell phones, along with the
instantaneous distribution capabilities of the
Internet, have combined to create a threat to the
privacy [...].” H.R. Rep. No, 108-504, at 3 (2004).
Congress expressed a concern for a compounded
violation of privacy when an image of an individual's
private area is captured without his or her consent
and then “[...] pictures or photographs find their way
to the internet.” Id. Congress’ legislative intent in
enacting 18 U.S.C. section 1801 appears to be aimed
at combating the spread and showing of nonconsensual photos of an individual's private area on
the internet. The House Report does not mention a
a33

concern for a scenario, like in this case, where an
indecent video is displayed, but never actually
electronically or physically transferred to the
possession of the other physically present person.
Appellant did not send the video to another person
by any means. Appellant displayed the video
recording on his cell phone to another soldier who was
physically present. Under the facts of this case, we
find appellant's act is not encompassed within the
definition of “electronically transmit;” he did not
“broadcast” the recording to the other soldier. As such,
we take corrective action in our decretal paragraph
below. 7
CONCLUSION
On consideration of the entire record, the finding of
guilty of Specification 2 of Charge IV, broadcasting an
indecent recording in violation of Article 120c(a)(3),
UCMJ, is SET ASIDE and that Specification is
DISMISSED. The remaining findings of guilty are
AFFIRMED.
We reassess the sentence in accordance with the
principles of United States v. Winckelmann, 73 M.J.
11 (C.A.A.F. 2013) and United States v. Sales, 22 M.J.
305, 307-08 (C.M.A. 1986). We are confident the panel
would have adjudged a sentence at least as severe as
the approved sentence absent the error. While the
7 We

note the rule of lenity would require a reversal of the
conviction if an otherwise ambiguous criminal statute still
existed. See Bifulco v. United States, 447 U.S. 381, 100 S. Ct.
2247, 65 L. Ed. 2d 205 (1980); Huddleston v. United States, 415
U.S. 814, 831-32, 94 S. Ct. 1262, 39 L. Ed. 2d 782 (1974) (holding
the rule of lenity provides that a criminal statute should be read
in favor of a defendant when the statute is sufficiently ambiguous
and it cannot be said exactly what conduct is prohibited).

a34

conviction of Specification 2 of Charge IV increased
appellant's maximum punishment that may be
imposed by seven years of confinement, appellant was
not sentenced to any confinement. Appellant was
sentenced to a bad-conduct discharge and reduction to
the grade of E-1. In light of the sentence received and
the gravamen of the remaining offenses of which
appellant was convicted, we AFFIRM the approved
sentence. All rights, privileges, and property of which
appellant has been deprived by virtue of that portion
of the findings set aside by this decision, are ordered
to be restored. See UCMJ art. 58b(c) and 75(a).
Senior Judge CAMPANELLA and Judge
SALUSSOLIA concur.

a35

